INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (G-4421433)

                                                                                November 13,2006

To:          - T. Ruiz
          Diego                                                  A




Prom: Walter Stachnik

Re:       Name Relationship Search Index (NRSI) Training and Warning

During two investigations recently conducted by our office (OIG-442 and 433), we found
evidence that an employee had used the Name Relationship Search Index (NRSI)' for
personal purposes and another employee had shared his NRSI user password with other
employees. These two employees, who work in different offices, told us they received
little or no training on NRSI (NRSI) when they were given access to that database. One
of these employees also indicated that the NRSI training he did receive, which occurred
over a year after he joined the Commission, focused on how to perform NRSI searches,
not on permissible uses of the database. The other employee said he was unaware that
NRSI passwords could not be shared with other employees.

The warning on the NRSI login screen does not inform employees that the database is to
be used only for official purposes, The warning does instruct employees not to share
their user ids or passwords with anyone and not to distribute NRSI information to any
unauthorized individuals.

To prevent improper use of NRSI, training on the system should be improved and
provided to employees before they are given NRSI access. Also, the warning on the
login screen should state that NRSI is only for official use.


          Recommendation A

          The Office of the Executive Director (OED); in consultation with the Division of
          Enforcement (Enforcement), the Office of Information Technology (OIT) and
          other user divisions and offices, should require that all agency employees receive
          training on NRSI before being granted access to the database. This training

',me NRSI application provides a cross-reference of data by name that is contained in multiple internal and
external automated SEC systems. It enables agency staff to cross-reference information available in these
systems by entering a partial or full name of an individual or company. All of the information in NRSI is
not for public release.

    According to the NRSI User Guide (Version 1.0, Oct. 10.2003), the OED is the NRSI system owner.
      should include a discussion of the non-public nature of the database, the
      permissible uses of the database, and the prohibition on sharing NRSI user
      passwords.

      Recommendation B

      The OED, in consultation with Enforcement, OIT, the Office of General Counsel,
      and other user divisions and offices, should add a statement to the warning on the
      NRSI login screen that NRSI is to be used only for official purposes.

      Management Response

      The OED agrees with Recommendations A and B. While the OED indicated that
      resources are too limited to provide in-person training to every new NRSI user,
      the OED believes that updating and distributing a training CD to new users would
      be an appropriate remedy. The OED will work with Enforcement and OIT to
      refme and implement the strategy for training new users, including a clear
      discussion of permissible and non-permissible uses of the database. The OED
      will also work with OIT to revise the current NRSI warning statement to clarify
      that the system is for official use only.


cc:   Corey Booth
      Joseph Gerrity
      Kenneth Johnson
      Debra Kittredge
      Randall Lee
      Shelley Parratt
      Linda Thomsen
      Darlene Pryor
      Peter Uhlrnann
